Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   State Policies Used to Establish
       Child Support Orders
                  For
             Low Income
        Non-custodial Parents




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-05-99-00391
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.


OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Victoria Dougherty, Project Leader                      Linda Hall, Program Specialist

Ann Maxwell, Analyst

Marco Villagrana, Analyst

Madeline Carpinelli, Analyst

James Athos, Intern




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                  EXECUTIVE                        SUMMARY



PURPOSE

     To examine the policies States use to determine the amount of child support to be paid by
     low-income non-custodial parents.

BACKGROUND

     The recent decline in welfare receipt elevates the need for increased child support
     collections to help single parents maintain self-sufficiency. The low-income status of many
     non-custodial parents adds to the challenge of boosting child support collections to meet
     custodial family needs. Some low-income obligors are delinquent in support payments
     because they are unwilling to pay support. However, one study estimates that 60 percent
     of non-custodial parents who do not pay child support, have a limited ability to pay
     support based on their income levels, education levels, rates of institutionalization, and
     intermittent employment history.1 These non-custodial parents have come to be known in
     the child support community as “dead-broke” rather than “dead-beat”.

     In recent years, the research and policy community has devoted more attention to
     strategies to increase the ability of non-custodial parents to pay child support. One
     primary area of concern is the order establishment process. In particular, representatives
     of the child support enforcement community have raised questions regarding the effect of
     income imputation and arrearage policies on the non-custodial parent’s ability to comply
     with the requirements of their child support order.

     We examined the policies used by States to determine the financial obligations owed by
     non-custodial parents through a close-ended survey of the Directors of each State’s child
     support enforcement agency. While this report provides self-reported information on all
     States’ policies in this area, our companion report, The Establishment of Child Support
     Orders for Low-Income Non-custodial Parents (OEI-05-99-00390), provides a more in-
     depth review of the practices used to determine financial obligations in a sample of 10
     States and the payment compliance associated with these practices.




  State Order Establishment Policies          1                                     OEI-05-99-00391
OVERVIEW

Retroactive Support

      Forty-six States charge non-custodial parents for welfare paid prior to the establishment of

      the order (welfare debt) or for retroactive support. Most States also charge 

      non-custodial parents for the costs of paternity testing. Some States charge non-custodial

      parents other establishment-related fees, court and attorney fees, case processing fees and

      birth-related medical charges.


Routine Fees and Interest

      In addition to the monthly support obligation and front-end arrears, non-custodial parents
      in many States are also obligated to pay other ongoing fees and interest on unpaid
      support. Forty-six States allow employers to charge fees to non-custodial parents for
      income withholding. In seven of these States, non-custodial parents are also charged
      ongoing case processing fees. In 34 States, interest charges on unpaid support can add to
      the total charges for which non-custodial parents are responsible.

Income Imputation

      Most States impute (i.e. attribute) income to the non-custodial parent if the non-custodial
      parent fails to provide relevant income information or if the non-custodial parent is
      unemployed or underemployed. Most of the States which impute income consider a
      combination of factors to determine the imputed amount. Thirty-five States base imputed
      income on the premise that the non-custodial parent should be able to work a minimum
      wage job for 40 hours/week.

Minimum Order Policies

      Thirty States specify an income threshold below which orders are established as a
      minimum amount. Eleven States which do not have an income threshold still have a
      minimum award amount available for use in low-income cases. The thresholds used to
      define low-income obligors and the minimum order amounts used vary by State.




   State Order Establishment Policies          2                                     OEI-05-99-00391
                      TABLE                           OF               CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


POLICY OVERVIEW

     Retroactive Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Routine Fees and Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Income Imputation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Minimum Order Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES

    A. Survey Instrument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          B. Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


          C. End-Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28





      State Order Establishment Policies                          3                                                   OEI-05-99-00391
                                    INTRODUCTION


PURPOSE

      To examine the policies States use to determine the amount of child support to be paid by
      low-income non-custodial parents.


BACKGROUND

      This report examines the policies States use to determine the amount of child support to
      be paid by low-income non-custodial parents. While this report provides information on
      all States’ policies in this area, a companion report, The Establishment of Child Support
      Orders for Low-Income Non-custodial Parents (OEI-05-99-00390), examines these
      policies in more depth in a sample of States and their relationship to payment compliance.
      A follow-up report will examine the degree to which child support orders are aligned with
      the earnings of obligors and the relationship between order alignment and payments.

Low Payment Rates and Custodial Parent Poverty

      Although child support collections have increased significantly in recent years, overall
      rates of collection remain low. In fiscal year (FY) 1997, of the $17.6 billion due in
      current support, $8.1 billion, or 46 percent was not collected.2

      Low child support collections leave many single mothers and their children in poverty. In
      1995, 85 percent of custodial parents were women, 33 percent of whom lived below the
      Federal poverty line.3 The percentage of custodial parents receiving welfare declined
      significantly in the past few years, dropping from 47 percent in 1995 to 34 percent in
      1998.4 This decline in welfare receipt elevates the need for increased child support
      collections to help struggling single parents maintain self-sufficiency. The regular receipt
      of child support is often cited as a critical ingredient to welfare reform success.

The Earnings of Non-Custodial Parents

      The non-custodial parent population can be divided into three income tiers: high, middle,
      and low. In each of these tiers, there are non-custodial parents who do not pay their child
      support. The percentage of obligors who do not pay support is greatest in the low-income
      tier.5 Some obligors are delinquent in support payments because they are unwilling to pay
      support. However, one study estimates that 60 percent of non-custodial parents who


   State Order Establishment Policies           4                                     OEI-05-99-00391
      do not pay child support, have a limited ability to pay support based on their income
      levels, education levels, institutionalization rates, and intermittent employment history.6
      These non-custodial parents are known as “dead-broke” rather than “dead-beat”.

Increasing Attention to the Treatment of Low-income Non-custodial Parents

      In recent years, the research and policy community has devoted more attention to the
      treatment of low-income non-custodial parents in the child support system. Especially in
      the wake of welfare reform, more attention is being devoted to how to improve the family
      maintenance contributions of low-income fathers to parallel the welfare-to-work initiatives
      for low-income mothers. The Department of Health and Human Services’ Fatherhood
      Initiative and the proposed Fathers Count Act demonstrate this trend.

      As researchers and policy-makers develop strategies to increase the cooperation of non-
      custodial parents, one primary area of concern is the order establishment process.
      Representatives of the child support enforcement community have raised questions about
      the effect of income imputation and arrearage policies on the non-custodial parent’s ability
      to comply with the support order obligation.

      The establishment of orders for child support enforcement cases (also known as IV-D
      cases, referring to the related title of the Social Security Act), occurs through either
      judicial or administrative processes. States are required to establish child support orders
      in accordance with State guidelines, outlining specific descriptive and numeric criteria.
      Any deviation from the presumptive guideline amount must be justified in writing.

      This report and its companions examine how States address the limited incomes of non-
      custodial parents in the establishment of orders and the relationship between these
      practices and payment compliance. Inability to pay is only one of several reasons for non-
      compliance with child support orders. Other reasons often cited as potential motivators of
      unwillingness to pay support include custody and visitation disputes and State retention of
      payments made on behalf of families on welfare.


SCOPE AND METHODOLOGY

      In this inspection we provide an overview of the policies used by all States to determine
      the amount owed in child support orders. To gather data on the State policies, we sent a
      close-ended survey to the directors of the child support enforcement agencies in each
      State and the District of Columbia. Surveys were distributed via facsimile in September
      1999 and survey data was collected between September and December 1999. Survey
      responses reflect State policy and are not necessarily reflective of local practice. The
      responses were self-reported by the IV-D Directors or assigned staff and were not probed.



   State Order Establishment Policies           5                                       OEI-05-99-00391
                                        OVERVIEW


Retroactive Support
Map I: States That Charge for Welfare Debt/Retroactive Support

      All but six of the States charge non-custodial parents for welfare paid to the child prior to
      the establishment of the order (welfare debt) or retroactive support for time prior to the
      establishment of the order. These two categories were combined to reflect all charges for
      prior child support. Forty-six States hold non-custodial parents responsible for this debt in
      addition to their monthly support obligation.


Table I: Period of Time For Which Non-custodial Parents are Subject to Welfare
Debt/Retroactive Support Charges

      In the 46 States that charge for support prior to order establishment, the point in time
      from which the debt is calculated varies, ranging from the child’s date of birth to the date
      of filing for support. This table gives a State-by-State summary of the time periods for
      which non-custodial parents are held accountable for support prior to order establishment.
      The survey question was not designed to capture different periods of time for which States
      may charge retroactive support in TANF versus non-TANF cases.

Figure I: Front End Fees Charged to the Non-custodial Parent At the Time of
Order Establishment

      In addition to the prospective support order obligation, non-custodial parents are
      potentially responsible for other front end costs at the time of order establishment. Eight
      States charge non-custodial parents for case processing fees. Nine States charge for court
      fees and 10 charge for attorneys’ services. All States, with the exception of Vermont,
      charge the non-custodial parents for either blood or genetic testing to determine
      fatherhood. Twenty-five States charge for birth related medical costs. All of the States,
      except Arkansas, Georgia, Missouri, Montana, North Carolina and South Carolina, charge
      non-custodial parents for welfare debt or retroactive support.




   State Order Establishment Policies           6                                     OEI-05-99-00391
State Order Establishment Policies   7   OEI-05-99-00391
Table 1: 	          Period of Time for Which Non-Custodial Parents are Subject to Welfare
                    Debt/Retroactive Support Charges

            State                                                  Time Period

 Alabama                   From date of paternity establishment, maximum is 2 years prior

 Alaska                    From date of service of paternity, maximum is 6 years prior

 Arizona                   From date of filing for support

 Arkansas                  Do not collect

 California                Up to 3 years prior to date of filing for support

 Colorado                  From date of birth of child

 Connecticut               From date of birth of child, maximum is 3 years prior

 Delaware                  From date of paternity establishment, maximum is 2 years prior

 D.C.                      From date of birth of child

 Florida                   Up to 2 years prior to date of filing for support

 Georgia                   Do not collect

 Hawaii                    Court’s discretion

 Idaho                     Up to 3 years prior to date of filing for support

 Illinois                  Court’s discretion

 Indiana                   From date of birth of child or date of filing for paternity (court’s discretion)

 Iowa                      From date of birth of child or up to 3 years prior to filing for support

 Kansas                    From when the non-custodial parent knew of the existence of the child

 Kentucky                  Court’s discretion

 Louisiana                 From date of filing for support

 Maine                     Up to 6 years prior to date of filing for support

 Maryland                  From date of filing for support

 Massachusetts             From date of birth of child

 Michigan                  From date of birth of child

 Minnesota                 Up to 2 years from date of filing for support

 Mississippi               Court’s discretion

 Missouri                  Do not collect



     State Order Establishment Policies                      8                                                OEI-05-99-00391
        State                                                    Time Period

Montana                  Do not collect

Nebraska                 From date of birth of child

Nevada                   Up to 4 years prior to date of filing for support

New Hampshire            From date of filing for support

New Jersey               From date of filing for support

New Mexico               From date of birth of child

New York                 From date custodial parent (CP) opened case with the TANF office

North Carolina           Do not collect

North Dakota             From date of birth of child or first contact with IV-D Agency

Ohio                     From date of birth of child

Oklahoma                 Up to 60 months prior to the date of filing for support

Oregon                   From date of first contact with IV-D Agency

Pennsylvania             From date of filing for support

Rhode Island             Up to 6 years prior to date of paternity establishment

South Carolina           Do not collect

South Dakota             From date of birth of child, maximum is 6 years

Tennessee                From date of paternity establishment

Texas                    From date of birth of child

Utah                     Up to 4 years prior to the date of order establishment

Vermont                  From the date of filing for support with the court

Virginia                 From date of birth of child, limit is to July, 1988 when the guidelines were established

Washington               From date CP started to receive public assistance or date of filing for support

West Virginia            From date of birth of child

Wisconsin                Court’s discretion

Wyoming                  From date of paternity establishment




   State Order Establishment Policies                      9                                           OEI-05-99-00391
State Order Establishment Policies   10   OEI-05-99-00391
Routine Fees and Interest

Map II: States’ Policies on Routine Fees

      In addition to the support obligation paid by the non-custodial parent, many of the States
      charge, or allow employers to charge ongoing fees. Forty-seven States allow employers
      to charge non-custodial parents a fee for income withholding. In addition to employers’
      fees, seven of the States charge non-custodial parents for ongoing case processing. Only
      five of the States do not charge non-custodial parents for either employer or case
      processing fees.


Map III: States’ Policies on Charging Interest on Support Owed

      Thirty-four States charge interest to the non-custodial parents on either debt stemming
      from charges prior to the order establishment, arrears which build up after order
      establishment, or on the total amount of debt and arrears past due. Eighteen of the States
      do not charge non-custodial parents any interest.

Map IV: States with Multiple Policies for Collecting Fees

      Several States charge multiple front end and ongoing fees leading to a larger cumulative
      cost for the non-custodial parent to pay in addition to the monthly support obligation.
      Michigan and Pennsylvania reportedly charge non-custodial parents for case processing
      and attorney fees, paternity testing fees and birth-related medical costs in addition to
      retroactive support. Seven States charge non-custodial parents interest on the support
      owed in addition to charges for retroactive support and three or more front-end fees.
      New Mexico and Mississippi charge non-custodial parents all of the front end fees listed,
      retroactive support, ongoing case processing fees and interest on unpaid support.




   State Order Establishment Policies         11                                     OEI-05-99-00391
State Order Establishment Policies   12   OEI-05-99-00391
State Order Establishment Policies   13   OEI-05-99-00391
State Order Establishment Policies   14   OEI-05-99-00391
Income Imputation

Map V: States That Impute Income by Policy

      Only the District of Columbia, Connecticut and Mississippi do not impute (i.e. attribute)
      income by policy. In 30 States, imputation is practiced if the non-custodial parent fails to
      provide relevant information or is currently unemployed or underemployed. Five States
      impute income only if the non-custodial parent fails to provide relevant information such as
      pay stubs, income tax returns or financial affidavits. Thirteen States impute income only if
      the non-custodial parent is unemployed or underemployed.


Figure II: Basis of Imputation

      Most of the 48 States that impute income consider a combination of factors in determining
      the amount of income to be imputed to the non-custodial parent. Thirty-five States base
      imputed awards on the premise that the non-custodial parent should be able to work a
      minimum wage job for 40 hours per week. Fifteen of the States consider the area wage
      rate and 10 of the States look at the area employment rate to determine imputed income.
      Seventeen States consider the non-custodial parent’s level of education while 14 account
      for disabilities hindering full employment. Thirty-five States evaluate the non-custodial
      parent’s skills and experience and thirty-one base imputation on most recent employment,
      where information is available.




    State Order Establishment Policies         15                                     OEI-05-99-00391
State Order Establishment Policies   16   OEI-05-99-00391
State Order Establishment Policies   17   OEI-05-99-00391
Minimum Order Policies

Map VI: States’ Policies Toward Low-Income Non-custodial Parents

      If the non-custodial parent is low-income, 30 States specify an income threshold below
      which orders are established differently. The thresholds used to define low-income
      obligors and the treatment of their orders vary by State. States with a threshold use a
      minimum award which is either presumptive or mandatory, or leave it to the court’s
      discretion to determine the award amount. Eleven States which do not have a threshold
      defining low-income obligors still have a minimum award amount to apply in cases where
      a non-custodial parent is determined to be low-income. Ten States do not have a threshold
      or a minimum award amount to apply in low-income cases.

Table II: States’ Treatment of Low Income Obligors

      States typically set low-income thresholds to be a minimum amount of weekly, monthly or
      annual earnings. Alaska and Maine use the Federal poverty level as their low-income
      threshold. Minimum order amounts range from $20/month to $168/month, with most
      minimum order States setting minimum awards between $20 and $50/month. Table II
      displays the income thresholds and minimum order amounts used by States. Some States
      may have reported a minimum threshold within their guidelines to be a separate threshold
      for low-income obligors while other States with such a guideline threshold might have
      responded that they do not have an income threshold below which a minimum obligation
      is ordered. (See question 4 in Survey in Appendix A).




   State Order Establishment Policies        18                                    OEI-05-99-00391
State Order Establishment Policies   19   OEI-05-99-00391
Table 2: States’ Treatment of Low-Income Obligors

        State             Income Threshold                Presumptive             Mandatory               Award is                No
                              Amount                       Minimum                Minimum                  Court’s             Minimum
                           (converted to months)            Award*                Award**                 Discretion           Specified

Alabama                 $550/month                                                                             X

Alaska                  Federal poverty level                                   $50/month

Arizona                 none                                                                                                         X

Arkansas                none                                                                                                         X

California              $1000/month net                                                                         X

Colorado                $400/month                                                                     $20-50 month

Connecticut             $723/month                       $28/month

Delaware                none                                                    $106/month

D.C.                    $625/month                       $50/month

Florida                 none                                                                                                         X

Georgia                 none                                                                                                         X

Hawaii                  none                             $50/month

Idaho                   $800/month                       $50/month

Illinois                none                                                                                    X

Indiana                 none                                                                                    X

Iowa                    $500/month                       $50/month

Kansas                  none                                                                                                         X

Kentucky                none                                                    $60-90/month

Louisiana               $600/month                                                                              X

Maine                   Federal poverty level                                   10% of
                                                                                income

Maryland                $599/month gross                 $20-50/month

Massachusetts           $531/month                       $50/month

Michigan1               none                                                       $21/month



           1
                  Michigan statute offers one formula to use for low-income obligors above the Federal poverty level and a formula for those
                  below it. As part of the mandatory minimum order, a health care add-on of between $3-$11/week is added.


    State Order Establishment Policies                             20                                                         OEI-05-99-00391
        State            Income Threshold                 Presumptive              Mandatory            Award is              No
                             Amount                        Minimum                 Minimum               Court’s           Minimum
                          (converted to months)             Award*                 Award**              Discretion         Specified

Minnesota              $550/month                                                                                               X

Mississippi            $417/month                                                                             X

Missouri               $824/month                        $20-50/month

Montana2               $893/month                                X

Nebraska               $687/month                        $50/month                                                              X

Nevada                 none                                                                                   X

New Hampshire          none                                                       $50/month

New Jersey3            $723 combined/month               $21-179/mo                                           X

New Mexico             $800/month                        $100/month

New York4              $687/month                                                 $25-50/month

North Carolina         $800/month                                                                                               X

North Dakota           none                                                       $50/month

Ohio5                  $700/month combined                                        $50/month

Oklahoma               none                                                                                                     X

Oregon                 $850/month gross                  $50/month

Pennsylvania           $550/month                                                 $20-50/month

Rhode Island           $600/month                                                                                               X

South Carolina         $600/month                        $50/month

South Dakota           none                                                                                                     X

Tennessee              none                                                                                                     X

Texas                  none                                                                                                     X



        2
                 The minimum award for Montana is a percentage of the non-custodial parent’s (NCP’s) income based on the relationship
                 between their net income and the State’s self-support reserve.

        3
                 The State of New Jersey sets awards for low-income situations based on the combined income of both the NCP and CP.

        4
                 The State of New York also has a self support reserve for the NCP set at $11,124 for 1999.

        5
                 The State of Ohio sets awards for low-income situations based on the combined income of both the NCP and CP.


   State Order Establishment Policies                              21                                                    OEI-05-99-00391
           State            Income Threshold               Presumptive            Mandatory             Award is                No
                                Amount                      Minimum               Minimum                Court’s             Minimum
                             (converted to months)           Award*               Award**               Discretion           Specified

    Utah                  $649/month                      $20/month

    Vermont               none                                                  $85-106/mo

    Virgina               $600/month                                            $65/month

    Washington            $600/month                      $25/month

    West Virgina          none                                                  $50/month

    Wisconsin             none                                                                                                    X

    Wyoming6              $732/month combined                                   $50/month




Definitions:
*          Presumptive Minimum Award: Award amount according to the guidelines (after other guideline
           adjustments have been made). This is the amount of the order unless the court deviates.
**         Mandatory Minimum Award: Specified minimum award amount from which there can be no downward
           deviation.




           6
                     Wyoming statute sets awards for low-income situations based on the combined income of both the NCP and CP.


       State Order Establishment Policies                           22                                                      OEI-05-99-00391
                                                                                       APPENDIX A


                                               Survey Instrument

State Child Support Order Establishment Practices Survey

STATE: _______ SURVEY CONTACT NAME:____________________________________
PHONE ___________________________ DATE:__________________

Guidelines

1.	      If your State uses Percentage of Income guidelines in the computation of a support order
         obligation, what are the specific percentages used per number of children?

         ___ One child                     ___ Two children            ___ Three children
         ___ Four children                 ___ Five or more children

Imputation

2.	      In what instances is imputation used as a means of determining the income of the non-
         custodial parent?

         ___ NCP fails to provide relevant information

         ___ NCP is currently unemployed

         ___ NCP is perceived to be deliberately unemployed or underemployed

         ___ Never Impute

         ___ Other (please specify) __________________________________________________

         ________________________________________________________________________

         ________________________________________________________________________

         ________________________________________________________________________


3.	      If income is imputed, what standards are used or what factors are considered during the
         imputation process?

         ___ 40 hours/week at minimum wage             ___ Educational level

         ___ Median Income in the State                ___ Physical and mental disabilities

         ___ Cost of raising a child in the State      ___ Special skills and training

         ___ Prevailing wage rates in the area         ___ Prior employment experience

         ___ Availability of employment in the area    ___ Income received during most 

                                                           recent employment period
         ___ Other (please specify)__________________________________________________



      State Order Establishment Policies                   23                               OEI-05-99-00391
                                                                               APPENDIX A


                                           Survey Instrument

Minimum Orders

4.	      If the non-custodial parent is found to be low-income, or an imputation process has set
         income at a low level, is there an income threshold below which a minimum obligation
         amount is ordered?

         ______ Income threshold amount $___________
         ______ No income threshold amount


5.	      What is the presumptive or mandatory minimum amount of support ordered for low-
         income cases?

         $_______ Amount    Presumptive________ or Mandatory ________
         ________ No Minimum Amount


Arrearage Policies/State Debt Policies

6.	      In addition to the prospective order obligation, are NCPs responsible for any other costs
         at the time of order establishment?

         ___ Yes                            ___ No

         If yes, what costs are NCPs responsible for?


         ___ Birth-related medical service costs     ___ Court time fees

         ___ Case-processing fees                    ___ Attorney services

         ___ Blood tests for paternity establishment ___ Child support during time prior to order 

                                                         establishment
         ___ Welfare payments made to custodial parent prior to order establishment
         ___ Other (please specify):__________________________________________________
         ________________________________________________________________________
         ________________________________________________________________________
         ________________________________________________________________________




      State Order Establishment Policies             24                                 OEI-05-99-00391
                                                                                 APPENDIX A


                                           Survey Instrument

7.	      If NCP is responsible for child support during time prior to order establishment, from what
         point in time is the past obligation calculated?

         ___ Birthdate of child for whom support is due

         ___ Date of paternity establishment

         ___ Date of first contact with NCP by IV-D system

         ___ Other (please specify):__________________________________________________

         ________________________________________________________________________

         ________________________________________________________________________


8.	       If NCP is responsible for child support during time prior to order establishment, is there a
         limit, whether temporal or monetary, on the amount of the past obligation which may be
         sought?

         ___ Yes                            ___ No

         If yes, please specify limit:
         ________________________________________________________________________
         ________________________________________________________________________
         ________________________________________________________________________
         ________________________________________________________________________


9.	      If NCP is responsible for welfare payments made to custodial parent prior to order
         establishment, is there a limit, whether temporal or monetary, on the amount of past
         obligation which may be sought?

         ___ Yes                            ___ No

         If yes, please specify
         limit:________________________________________________________________
         ________________________________________________________________________
         ________________________________________________________________________
         __________________________




      State Order Establishment Policies             25                                  OEI-05-99-00391
                                                                                 APPENDIX A


                                            Survey Instrument


10.	      If NCP is responsible for welfare payments made to custodial parent prior to order
          establishment, are there any State policies forgiving the debt owed the State in any cases?

          ___ Yes                            ___ No

          If yes, please specify
          policy:__________________________________________________________________
          ________________________________________________________________________
          ________________________________________________________________________
          ________________________________________________________________________

11.       Is interest charged to the NCP on any of the following:

          _______ Prior debt (for charges before order establishment)      _______ Interest Rate
          _______ Arrearages which build up after order establishment      _______ Interest Rate
          _______ Total Amount of debt and arrears past due                       _______ Interest
                                                                              Rate

Routine Fees

12.	      Does your State IV-D office charge NCPs for any ongoing case processing fees?
          ________ Yes                        _______No

          If yes, how much are the NCPs required to pay? $_______________
          With what frequency are the payments required _______


13.	      In your State, are employers allowed to charge fees to the NCP for income-witholding?
          ______Yes                     _______No

          If yes, how much are employers allowed to charge? $_______________




       State Order Establishment Policies             26                                 OEI-05-99-00391
                                                                         APPENDIX B


               Related Office of Inspector General Reports


   Paternity Establishment: Notification of Rights And Responsibilities For Voluntary
    Paternity Acknowledgment (OEI-06-98-00051)

   Paternity Establishment: Use of Alternative Sites for Voluntary Paternity
   Acknowledgment (OEI-06-98-00052)

   Paternity Establishment: State Use of Genetic Testing (OEI-06-98-00054)

   Paternity Establishment: The Role of Vital Records Agencies (OEI-06-98-00055)

    Paternity Establishment: Payment to Vital Records (OEI-06-98-00056)

   Review and Adjustment of Support Orders (OEI-05-98-00100)

   Review and Adjustment of Support Orders, Experience in Ten States (OEI-05-98-00102)

   Unpaid Child Support and Income Tax Deductions (OEI-05-95-00070)

   Grantees and Providers Delinquent in Child Support (OEI-07-95-00390)

   Review and Adjustment of IV-D Child Support Orders (OEI-07-92-00990)

   Follow-Up on AFDC Absent Parents (OEI-05-89-01270; 8/91)

   Child Support Enforcement Collection for Non-AFDC Clients (OAI-05-88-00340; 7/89)

    Child Support Enforcement Collections, AFDC Cases: An Overview (OAI-05-86-00097)

   Child Support Enforcement Collections on AFDC Cases: Non-Pursuit
   (OAI-05-87-00033)

   Child Support Enforcement Collections on AFDC Cases: Arrearages (OAI-05-87-00034)

   Child Support Enforcement Collections on AFDC Cases: Modification of Court Orders
   (OAI-05-87-00035)




State Order Establishment Policies         27                                   OEI-05-99-00391
                                                                                      APPENDIX C
                                    End-Notes



1.	       “Income and Demographic Characteristics of Nonresident Fathers in 1993", Elaine Sorenson and Laura
          Wheaton, the Urban Institute, Forthcoming Report

2. 	      22nd Annual Report to Congress, Office of Child Support Enforcement, Administration for Children and
          Families, U.S. Department of Health and Human Services, FY 1997.

3.	       “Child Support for Custodial Mothers and Fathers: 1995" Current Population Report, U.S. Census
          Bureau, March 1999.

4.	       “Child Support Enforcement: Effects of Declining Welfare Caseloads are Beginning to Emerge”,
          GAO/HEHS-99-105, Draft Version May 17, 1999.

5.	       “Low-Income Noncustodial Fathers: Who are They and What are States Doing to Assist Them in Their
          Efforts to Pay Child Support”, Elaine Sorenson, The Urban Institute, January, 1997.

6.        Op. cit., “Income and Demographic Characteristics of Nonresident Fathers in 1993"




       State Order Establishment Policies              28                                         OEI-05-99-00391
